            Office of Inspector General




December 21, 2006

DEAN R. RODMAN
MANAGER, EAGAN ACCOUNTING SERVICE CENTER

SUBJECT: Audit Report – Internal Controls Over Receipt and Disbursing
         Activities (Report Number FT-AR-07-006)

This report presents issues concerning internal controls over receipt and disbursing
activities at the Disbursing Branch located at the Eagan Information Technology and
Accounting Service Center (IT/ASC) (Project Number 06BM001FT001). We identified
these issues during our audit of the fiscal year (FY) 2006 U.S. Postal Service Financial
Statements – Eagan IT/ASC.

                                              Background

The Disbursing Branch receives approximately $230.3 million and disburses
approximately $4.8 billion annually1 for the three Postal Service Accounting Service
Centers (ASC).2 Its functions include receiving, processing, and accounting for cash
from various sources for a variety of reasons. Regarding cash receipts, Disbursing
Branch personnel record cash on prenumbered Postal Service (PS) Forms 3544, USPS
Receipt for Money or Services, to identify the date and amount received. Regarding
disbursements, they process all PS Forms 1865, Voucher and Schedule of Payments,
signed by authorized officers, and maintain signature/designation cards for all certifying
officers.

The Finance Branch is responsible for certifying funds and for identifying employees
authorized to certify those funds. A supplement to the Treasury Financial Manual, Now
That You’re a Certifying Officer, states each agency is responsible for assessing the
personal liability and obligations of its certifying officers. The Postal Service adopted
responsibilities and liabilities as stated in the supplement and the Finance Branch
provides this booklet to all new certifying officers. Accordingly, Postal Service certifying
officers are personally accountable for payments they certify. Additionally, they may be
required to reimburse the agency for payments found to be illegal, improper, or
incorrect, and this liability cannot be relieved.


1
  The Disbursing Branch generally receives cash from Postal Service employees, attorneys, and vendors for reasons
such as accounts receivable payments, garnishment processing fees, and non-sufficient fund charges.
2
  The three ASCs are located in Eagan, Minnesota; St. Louis, Missouri; and San Mateo, California. Amounts do not
include payroll.
Internal Controls Over Receipt and                                                                  FT-AR-07-006
 Disbursing Activities




                            Objective, Scope, and Methodology

The objective of this part of the audit was to determine the adequacy of internal controls
over receipt and disbursing activities. We conducted this work at the Disbursing Branch
located at the Eagan IT/ASC.

To accomplish our objective, we obtained and analyzed accounting records, reviewed
applicable Postal Service policies and procedures, and reviewed Treasury manuals
regarding cash management functions. Further, we interviewed Eagan Accounting
Service Center personnel and observed procedures they performed.

We conducted this part of the audit from May through December 2006 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. We did not rely
on any computer extracted data for our audit. We discussed our observations and
conclusions with management officials and included their comments where appropriate.

                                        Prior Audit Coverage
We review disbursing activity annually as part of our financial statement audit at the
Eagan IT/ASC.
                                                   Results
Internal controls over receipt and disbursing activities at the Disbursing Branch located
at the Eagan IT/ASC were generally in place and effective. However, we identified
issues related to safeguarding of assets that, if corrected, could reduce the risk of fraud,
waste, or mismanagement. Specifically, Disbursing Branch personnel did not always
properly examine voucher and schedule of payments for proper certification and two
employees mingled funds with their personal accounts.

Examination of Forms for Proper Certification

From April 19 to June 28, 2006, Disbursing Branch personnel processed payments
totaling $23,917,906 certified by an officer without a valid signature/designation card on
file.

Postal Service Handbook F-19, Accountability of Disbursing Officers, Section 223,
Review of Documents, requires disbursing officers to examine PS Form 1865 for proper
completion, correct certification, and accurate computation. In addition, the Treasury
Financial Manual requires exempt agencies to maintain a valid signature/designation
card on file for each designee and designated function for comparison.3

3
 Treasury Financial Manual, Volume 1, Part 4-1100, Delegations and Designations of Authority for Disbursing
Functions, considers exempt agencies to be those that perform their own disbursing functions.



                                                        2
Internal Controls Over Receipt and                                                                FT-AR-07-006
 Disbursing Activities



The Finance Branch periodically prepares a certifying officer list, but the officer who
certified these payments was omitted from the list.4 Therefore, the Disbursing Branch
properly revoked the officer signature/designation card on file. However, disbursing
personnel continued to process payments with the officer’s certification because they
did not always compare certifying officials shown on PS Form 1865 with officer
signature/designation cards on file.

During our audit, the Finance Branch discovered the error and completed a valid
signature/designation card. When certifying officials are not validated, the Postal
Service increases its risk of improper payments. We plan to report the $23,917,906 as
Safeguarding Assets, Assets at Risk (non-monetary impact) in our Semiannual Report
to Congress.

Recommendations

We recommend the Manager, Eagan Accounting Service Center, direct the Manager,
Disbursing Branch, to:

1. Instruct disbursing personnel to compare certifying officials shown on PS
   Forms 1865, Voucher and Schedule of Payments, with officer signature/designation
   cards on file in accordance with policies and procedures.

2. Confirm changes to the certifying officer list are proper before revoking
   signature/designation cards.

Management’s Comments

Management agreed with our recommendations and stated, in part, that the Disbursing
Branch will confirm deletions prior to revoking signature/designation cards. Also, they
will compare certifying official signatures on payment vouchers to those on
signature/designation cards to ensure payments are certified by employees with a valid
signature/designation card. Subsequent to the receipt of the response, management
stated they implemented the new enhancements prior to or on December 13, 2006.

Management disagreed with our $23,917,906 of Safeguarding Assets, Assets at Risk
(non-monetary impact) because they stated the officer is well known and, therefore,
there was no risk of monetary loss. Management’s comments, in their entirety, are
included in the appendix.




4
  The employee was a valid certifying officer. However, the Finance Branch erroneously removed the employee from
the list.



                                                       3
Internal Controls Over Receipt and                                                                 FT-AR-07-006
 Disbursing Activities



Evaluation of Management’s Comments

Management’s comments are responsive to the recommendations and actions taken
should correct the issues identified in the finding. We continue to believe our audit work
resulted in Safeguarding Assets, Assets at Risk (non-monetary impact). The Finance
Branch periodically updates the certifying officers list to reflect changes in employment
status and job responsibilities. In this case, the certifying officer continued in the same
capacity; however, when disbursing personnel do not validate the list, the risk of
improper payments because of a change in certifying officers is increased. We will
continue to monitor the newly implemented procedures during our future financial
statement audit work.

Depositing Cash into Personal Accounts

Two employees deposited Postal Service funds in their own personal accounts to
convert cash to a check so it could be deposited with the Federal Reserve Bank (FRB)
of Minneapolis.5 Postal Service Handbook F-19, Section 315, Restrictions, specifically
prohibits mingling Postal Service funds with personal accounts.

Since certain employees had accounts at the financial institution located at the Eagan
IT/ASC, they deposited Postal Service cash into their accounts and then immediately
withdrew those same funds as a check so they could be deposited into the FRB of
Minneapolis. When the Postal Service mingles its funds with employee personal funds,
it increases the risk of loss.

During the course of our audit, management established an account at the financial
institution located at the Eagan IT/ASC and discontinued the practice of depositing cash
into employee accounts to convert to checks. Therefore, we are not making a
recommendation at this time. However, we will continue to monitor this issue during
future financial statements audit work.

                                        Other Observations

Payments for accounts receivable, returned accounts payable checks, returned payroll
checks, undeliverable checks, returned savings bonds, and confirmed deposits are first
received in the Eagan mailroom and later delivered to the Disbursing Branch for
processing. The Eagan mailroom is a part of Host Computing Services. As such, the
Disbursing Branch does not have authority over its operations. Accordingly, we did not
include mailroom operations in the scope of our audit. However, we did observe limited
mailroom activities directly related to our objective. We offer the following comments
based on our observations:

5
 Treasury Financial Manual, Volume 1, Part 5-2000, Checks and Cash Received in Collections, states that deposits
made at FRBs must not contain cash.



                                                        4
Internal Controls Over Receipt and                                              FT-AR-07-006
 Disbursing Activities



       Mailroom clerks open sensitive mail that contains cash and negotiable
        instruments without oversight.

       A mailroom clerk left a mail cart containing negotiable instruments unattended in
        the hallway while gathering other mail.

       A mailroom clerk did not verify the identity of a man who picked up Disbursing
        Branch mail.

We will continue to monitor these activities as part of our ongoing audit work at the
Eagan IT/ASC.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Siewert, Director,
Financial Statements, or me at (703) 248-2100.

    E-Signed by John Cihota
 ERIFY authenticity with ApproveI




John E. Cihota
Deputy Assistant Inspector General
 for Financial Operations

Attachment

cc: Lynn Malcolm
    Vincent H. DeVito, Jr.
    Elizabeth L. Novillis
    Steven R. Phelps




                                             5
Internal Controls Over Receipt and                       FT-AR-07-006
 Disbursing Activities


                       APPENDIX. MANAGEMENT’S COMMENTS




                                     6
Internal Controls Over Receipt and       FT-AR-07-006
 Disbursing Activities




                                     7
